Zan |

Q@OCKLE

L 1 Bri fs E-Mail Address:
©ga ie contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1051

STATE OF KANSAS, PETITIONER,
v.
TIMOTHY C. BOETTGER AND RYAN R. JOHNSON
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICI CURIAE OF ‘VIRGINIA, CONNECTICUT,
DELAWARE, DISTRICT OF COLUMBIA, HAWAI‘I, INDIANA, LOUISIANA, MINNESOTA, NEBRASKA, NORTH
CAROLINA, OHIO, OKLAHOMA, PENNSYLVANIA, SOUTH DAKOTA, TEXAS, UTAH, AND WISCONSIN IN
SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
MARK R.. HERRING TOBY J. HEYTENS
Attorney General Solicitor General
VICTORIA N. PEARSON Counsel of Record
Deputy Attorney General MICHELLE S. KALLEN

MARTINE E. CICCONI
Deputy Solicitors General
JESSICA MERRY SAMUELS
Assistant Solicitor General

ZACHARY R. GLUBIAK
John Marshall Fellow
OFFICE OF THE VIRGINIA
ATTORNEY GENERAL
202 North Ninth Street
Richmond, Virginia 23219
(804) 786-7240
solicitorgeneral@oag.state.va.us

Subscribed and sworn to before me this 25th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL HOTARY-State of Uobraska
ah. Lodo Kenee. Less Qudraw~ bh, Bhi

Notary Publi Affiant 39370

‘My Comm. Exp, September 5, 2023

 
 

Attorneys for Petitioner

Toby Crouse
Counsel of Record

Office of Attorney General Derek Schmidt 785-368-6693
120 S.W. 10th Avenue

2nd Floor

Topeka, KS 66612

toby.crouse@ag.ks.gov

Party name: State of Kansas

 

Jeffrey T. Green
Counsel of Record

 

Attorneys for Respondent

Sidley Austin 202-736-8291
1501 K Street, NW
Washington, DC 20005

jgreen@sidley.com

Party name: Timothy C. Boettger, et al.

 

 
